No. 19-1180

 

IN THE
Supreme Court of the United States

DALE DANIELSON, ET AL.,
Petitioners,
v.

JAY ROBERT INSLEE, IN HIS OFFICIAL CAPACITY AS
GOVERNOR OF THE STATE OF WASHINGTON, ET AL.,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals for the Ninth Circuit

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify
that the Brief in Opposition of Respondent Washington
Federation of State Employees, AFSCME Council 28, AFL-
CIO in the above entitled case complies with the typeface
requirement of Supreme Court Rule 33.1(b), being prepared
in Century Schoolbook 12 point type for the text and 10
point for the footnotes, and that the brief complies with the
word limit specified by Rule 33.1(g)(ii) because it contains
5,754 words, excluding the parts that are exempted by
Supreme Court Rule 33.1(d), as needed.

Dated: May 11, 2020

£2—
P. Caséy Pitts
ALTSHULER BERZON LLP
177 Post Street, Suite 300
San Francisco, CA 94108
(415) 421-7151
cpitts@altber.com
Counsel for Respondent Washington
Federation of State Employees, AFSCME
Council 28, AFL-CIO
